OFFICE OF INSPECTOR GENERAL

               Audit Report

Audit of the Data Management Application Controls
       and Selected General Controls in the
     Financial Management Integrated System


               Report No. 14-12
              September 30, 2014




 RAILROAD RETIREMENT BOARD
                                EXECUTIVE SUMMARY

The Office of Inspector General (OIG) for the Railroad Retirement Board (RRB)
conducted an audit of data management application controls and selected configuration
management, segregation of duties, and contingency planning general controls in the
RRB’s Financial Management Integrated System (FMIS). The objective of our audit was
to assess the adequacy of the controls.

Background

In October 2013, the RRB transitioned from a mainframe based financial management
system to FMIS, a web-based, cloud hosted system. Data management components of
an application include the logical design and physical architecture of the system, and
control the entry, storage, retrieval, and processing of information. In an effective
internal control environment, configuration management controls should be in place to
ensure adequate migration from an older system to a newer system; a contractor’s
organizational structure should have proper segregation of duties; and contingency
planning should ensure the continuity of operations if an unplanned interruption of
operation occurs.

Findings

Our audit determined that the FMIS controls for data management, configuration
management (migration of the system), contractor segregation of duties, and
contingency planning are adequate; however, some control deficiencies exist. We
determined that the RRB should:

   •   create system specific procedures for access to the FMIS application;
   •   update the FMIS System Security Plan to correct errors in control descriptions
       and ensure missing controls are reflected; and
   •   modify audit and accountability procedures to reflect current practice.

Additionally, an official from the Bureau of Fiscal Operations notified us that the RRB
anticipates migrating their Program Accounts Receivable system to one that will fully
integrate with FMIS. Similar control deficiencies could occur during the course of that
migration if lessons learned are not effectively applied.

Recommendations

We made eight recommendations to RRB management to address the control
deficiencies that we identified in the audit.

Management’s Response

The Bureau of Fiscal Operations concurred with three recommendations and partially
concurred with two. They consider the Financial Management System Security Plan as

                                             i
the primary vehicle for control language and information, and will update that plan after
consulting with the FMIS contractor. They will also publish the necessary procedures for
obtaining access to FMIS and provide the PAR migration team with the reported OIG
findings and recommendations, as well as other lessons learned documentation from
the FMIS migration.

The Bureau of Information Services concurred with the three recommendations
addressed to their Bureau. They will review and modify the applicable policies and
procedures.




                                            ii
                                         TABLE OF CONTENTS


EXECUTIVE SUMMARY ............................................................................. i
INTRODUCTION
  Background .................................................................................................................. 1
  Audit Objective ............................................................................................................. 2
  Scope ........................................................................................................................... 2
  Methodology ................................................................................................................. 2

RESULTS OF AUDIT
  Lack of System-Specific Procedures for Access to FMIS............................................. 4
    Recommendations .................................................................................................... 5
    Management’s Responses ........................................................................................ 5
    OIG’s Comments on Management’s Response ........................................................ 6

  FMIS System Security Plan Needs Updating ............................................................... 6
    Recommendations .................................................................................................... 7
    Management’s Response.......................................................................................... 8
    OIG’s Comments on Management’s Response ........................................................ 8

  Inaccurate Audit and Accountability Procedures for Audit Records and Logs .............. 8
    Recommendations .................................................................................................... 9
    Management’s Response.......................................................................................... 9

  Anticipated Migration of Program Accounts Receivable Application ............................ 9
    Recommendation .................................................................................................... 10
    Management’s Response........................................................................................ 10

APPENDICES
  Appendix I – Management’s Response – Bureau of Fiscal Operations..................... 11
  Appendix II – Management’s Response – Bureau of Information Services ................ 14




                                                                iii
                                             INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) audit of the
application controls for data management and selected general controls for
configuration management, segregation of duties, and contingency planning in the
Railroad Retirement Board’s (RRB) Financial Management Integrated System (FMIS).

Background

The RRB is an independent agency in the executive branch of the Federal government.
The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad Retirement
Act and the Railroad Unemployment Insurance Act. The RRB paid $11.7 billion in
retirement/survivor benefits and $84.5 million in unemployment and sickness insurance
benefits during fiscal year 2013. 1

The RRB uses its Financial Management System to record financial transactions and to
support the preparation of the agency’s annual financial statements. In October 2013,
the RRB transitioned from the Federal Financial System, a mainframe based financial
management system to FMIS, a web-based, cloud hosted system. FMIS, which is
provided by a contractor for the RRB and is owned by the agency’s Bureau of Fiscal
Operations (BFO), was authorized to operate by the RRB’s Chief Financial Officer on
September 30, 2013. FMIS is the core system for budget formulation and execution,
procurement, payment and receivable management, general ledger management, debt
collection and external reporting. The other component application of the Financial
Management System is the Program Accounts Receivable (PAR) system.

The Federal Information System Controls Audit Manual (FISCAM), developed by the
Government Accountability Office (GAO), provides a methodology for evaluating
information system controls. 2 FISCAM has specific control objectives with audit
techniques and procedures for each of the control review areas to evaluate the
effectiveness of the controls.

Data management components of an application include the logical design and physical
architecture of the system, and control the entry, storage, retrieval, and processing of
information. Additionally, in an effective internal control environment:

      •   configuration management controls should be in place to ensure adequate
          migration from an older system to a newer system;
      •   a contractor’s organizational structure should have proper segregation of duties;
          and
      •   contingency planning should ensure the continuity of operations if an unplanned
          interruption of operation occurs.


1
    Railroad Retirement Board Performance and Accountability Report, Fiscal Year 2013.
2
    Federal Information System Control Audit Manual (FISCAM), GAO-09-232G, February 2009.

                                                       1
This audit supports the RRB’s strategic plan to “[s]erve as responsible stewards for our
customers’ trust funds and agency resources” and includes an objective to “ensure
effectiveness, efficiency, and security of operations.” This audit addresses controls that
ensure security of operations.

This audit will also directly support the OIG’s mandated annual Federal Information
Security Management Act (FISMA) evaluation and indirectly support the OIG’s audit of
the RRB’s financial statements. 3

Audit Objective

The objective of this audit was to assess the adequacy of the data management
controls and selected configuration management, segregation of duties, and
contingency planning controls in FMIS.

Scope

The scope of the audit was October 2013 through June 2014, and configuration
management controls over the system migration that took place in fiscal year 2013.

Methodology

To accomplish the audit objective, we:

      •   reviewed pertinent laws and guidance;
      •   reviewed pertinent RRB policies and procedures to ensure compliance with laws
          and guidance;
      •   reviewed documentation and interviewed responsible agency management and
          staff to gain an understanding of the internal controls placed into operation,
          including those for data management;
      •   reviewed the procedures used for obtaining access to FMIS;
      •   reviewed the system development process used for FMIS migration;
      •   reviewed the FMIS configuration management documentation to support
          acceptance testing and system migration;
      •   reviewed the contractor’s organizational chart and access profiles to ensure
          access privileges are properly segregated;
      •   reviewed the procedures used for monitoring FMIS auditable events, including
          methods for detecting abnormal activity; and
      •   reviewed documentation to support the FMIS contingency plan.




3
    Federal Information Security Management Act of 2002, Public Law 107-347.

                                                    2
The primary guidance for this audit included FISCAM, FISMA, and the National Institute
of Standards and Technology (NIST) standards and guidance.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. We conducted our fieldwork at the RRB’s headquarters in Chicago,
Illinois from January 2014 through July 2014.




                                           3
                                   RESULTS OF AUDIT

Our audit determined that the FMIS controls for data management, configuration
management (migration of the system), contractor segregation of duties, and
contingency planning are adequate; however, some control deficiencies exist. We
determined that the RRB should:

   •   create system specific procedures for access to the FMIS application;
   •   update the FMIS System Security Plan (SSP) to correct errors in control
       descriptions and ensure missing controls are reflected; and
   •   modify audit and accountability procedures to reflect current practice.

Additionally, we were notified that the RRB anticipates migrating their PAR system to
one which will fully integrate with FMIS. This migration could potentially result in similar
deficiencies and risks.

The details of our findings and recommendations for corrective action follow.

Agency management generally concurs with our recommendations. The full texts of
management’s responses are included in Appendices I and II of this report.

Lack of System-Specific Procedures for Access to FMIS

There are no system-specific policies and procedures for acquiring access to FMIS.
System-specific procedures for the Financial Management System were previously
recommended in 2009, but have not yet been established. Additionally, the existing
RRB general policies and procedures for access control are outdated and do not reflect
the additional actions or notifications required to obtain access to the FMIS application.
During the course of our audit, we observed that access requests for FMIS were not
handled timely.

NIST Special Publication (SP) 800-53, Revision 4, Security and Privacy Controls for
Federal Information Systems and Organizations, requires that agencies develop,
document, and disseminate an access control policy that addresses purpose, scope,
roles, responsibilities, management commitment, coordination among organizational
entities, and compliance. This guidance also requires that agencies review and update
the current access control policy and procedures.

The FMIS application, implemented in October 2013, contains many more security roles
and profiles than the Federal Financial System. The BFO FMIS administrator stated that
he is still learning the system, which is a continuing process as implementation of the
application continues. Presently, when an RRB employee requires access or a change
in access, the BFO FMIS administrator reviews the access requested and will authorize
the contractor to implement that access. In the future, the BFO FMIS administrator will
implement the access without contractor assistance.

                                              4
The RRB’s Bureau of Information Services (BIS) is responsible for the general
information security policies and procedures. The general policies and procedures for
access controls refer to special access procedures for external systems. These policies
and procedures are published in four RRB documents: (1) Administrative Circular,
Information Resource Management-18, Information Security Policy; (2) Access Control
Policy; (3) Access Control Processes and Procedures; and (4) Appendix A – RRB
System Access Policy.

All of these documents state that there are some external systems that have special
procedures for processing access requests; however, these documents do not include
the Financial Management System (which consists of FMIS and the PAR system) as
one of the external systems requiring special access procedures. The Chief Security
Officer informed us that BIS has been working with a limited staff, which has caused
some tasks such as reviewing, updating, and finalizing specific policies and procedures
to be delayed. An additional employee is expected to begin work by the end of fiscal
year 2014.

The lack of system-specific policies and procedures can result in improper or
unprocessed requests for access to the FMIS application. There is an increased risk of
security exposure and control gaps when policies and procedures are not reviewed and
updated timely.

Recommendations

   1. The Bureau of Fiscal Operations should ensure the BFO FMIS administrator
      acquires the expertise to implement access or changes in access without
      contractor assistance.

   2. The Bureau of Fiscal Operations should implement system-specific procedures
      for obtaining access to FMIS.

   3. The Bureau of Information Services should update the four general policy and
      procedure documents to include all systems requiring special access procedures.

Management’s Responses

The BFO concurs with recommendations 1 and 2. For recommendation 1, they stated
the FMIS administrator has acquired the expertise to make routine implementations and
changes of access with the current security configuration supplied by the contractor, but
will continue to rely on support from the FMIS helpdesk for assistance in any
modifications to the current configuration.

The BIS concurs with recommendation 3. The Chief Security Officer will update (1)
Administrative Circular, Information Resource Management (IRM)-18, Information
Security Policy; (2) Access Control Policy; (3) Access Control Processes and
Procedures, and (4) Appendix A – RRB System Access Policy to include all systems
requiring special access procedures.
                                            5
OIG’s Comments on Management’s Response

The OIG’s intention with recommendation 1 is to ensure the FMIS administrator is able
to implement access or changes in access without contractor assistance. This would
include situations where new or modified security configurations may be required.


FMIS System Security Plan Needs Updating

Control descriptions within the FMIS SSP are inaccurate or incomplete for some
controls and need to be updated. The FMIS SSP also needs to be updated to include
additional controls required for moderate impact systems based on updates in NIST
SP 800-53, Revision 4.

We identified the following inaccurate or incomplete control information within the
FMIS SSP:

    •   Access to the FMIS application is inaccurately shown as controlled by the RRB
        Active Directory when it is not.
    •   The list of applicable policies referenced for configuration management is
        incomplete.
    •   Incomplete control descriptions suggest that the control is fully inherited by either
        the RRB or the contractor when they share responsibility for control
        implementation.
    •   New controls established in NIST SP 800-53, Revision 4, are not present in the
        FMIS SSP. There is a one year grace period from the publication date of
        April 2013 for the implementation of these new controls.

NIST SP 800-18, Guide for Developing Security Plans for Federal Information Systems,
states that the SSP should be reviewed annually to ensure current information about the
system. Federal Information Processing Standards Publication 200, Minimum Security
Requirements for Federal Information and Information Systems, specifies the minimum
security requirements as defined in NIST SP 800-53, Revision 4.

RRB management did not ensure that the correct control language was documented in the
FMIS SSP. The contractor prepared the FMIS SSP for the RRB in September 2013, just
prior to system migration. Additionally, the FMIS SSP was based on the recommended
security controls outlined in NIST SP 800-53, Revision 3, as the one year grace period for
implementing new controls in Revision 4 had not elapsed. 4

Since FMIS is a web-based, cloud hosted system, and the responsibilities for
information security controls are performed by the contractor and/or the RRB, and both

4
 Recommended Security Controls for Federal Information Systems and Organizations, NIST SP 800-53, Revision 3,
August 2009.
                                                      6
the contractor and RRB have multiple organizations that perform these responsibilities,
the RRB should maintain the following documents detailing the information security
control environment for the Financial Management System, including FMIS:

   •   The Financial Management System’s Security Plan – This plan would include the
       responsibilities of, or procedures implemented by, RRB staff for the controls that
       are specific to the two component applications (PAR and FMIS). This document
       would only have the detailed control information for the controls within the RRB’s
       Financial Management System’s boundaries. For the controls that are inherited
       or the portions of controls that are shared, this document would only refer to the
       other documents that have responsibilities for those controls or portions of
       controls. This document should be updated annually.
   •   The Agency Enterprise General Information Support System’s Security Plan –
       This plan would reflect the controls that are inherited by the Financial
       Management System from the RRB’s general support system. This document
       should be updated annually.
   •   The contractor’s Information-as-a-Service Cloud System Security Plan – This
       plan is prepared by the contractor and reflects the controls implemented by the
       contractor for the infrastructure on which the FMIS application resides. This
       document is available through the General Services Administration’s Federal
       Risk and Authorization Management Program (FedRAMP) website.
   •   The FMIS Application System Security Plan – This plan would include the
       responsibilities of, or procedures implemented by, the contractor’s various
       support teams for controls that are specific to the FMIS application. The
       preparation of this SSP is currently not one of the procured services in the RRB’s
       contract, so a contract modification would be required. This document should be
       updated annually.

The RRB has an increased risk of security exposures and control gaps when
security documents are inaccurate or not updated timely to reflect the current process.
By not reviewing and ensuring that the FMIS SSP accurately describes the security
controls in place, there is a risk that the authorizing official will inappropriately consider
the system to be within acceptable risk measures established by the agency.

Recommendations

   4. The Bureau of Fiscal Operations should ensure that the control language within
      the Financial Management Integrated System Security Plan contains accurate
      and complete control information and includes all required controls from NIST
      SP 800-53, Revision 4.

   5. The Bureau of Fiscal Operations should request a contract modification to
      include the preparation and annual update of the Financial Management
      Integrated System Security Plan as part of the procured services and
      deliverables.

                                               7
Management’s Response

The BFO partially concurs with recommendations 4 and 5. They consider the Financial
Management System Security Plan as the primary vehicle for control language and
information for the Financial Management System, leveraging control language and
information from the Agency Enterprise General Information Support System’s Security
Plan, the contractor’s cloud security plan required for FedRAMP certification, and the
contractor’s FMIS Application System Security Plan. The BFO will not contract for an
annual update of the FMIS SSP, but will consult with the contractor on any update that
may be indicated from continuous monitoring of the Financial Management System.

OIG’s Comments on Management’s Response

The OIG agrees with this alternative approach to ensuring accurate and complete
control information exists for FMIS.


Inaccurate Audit and Accountability Procedures for Audit Records and Logs

The RRB's Audit and Accountability Processes and Procedures document does not
reflect the current process for the review of audit records and logs, and is inconsistent
with the RRB’s Audit and Accountability Policy.

The section of the procedure document that relates to audit review, analysis, and
reporting incorrectly states that audit records are reviewed annually when they actually
are reviewed daily. In addition, the section for auditable events incorrectly states that
audit records are reviewed annually, when it is actually the listing of auditable events
that is reviewed annually.

NIST SP 800-53, Revision 4, requires that agencies review and update audit and
accountability policies and procedures.

RRB management did not ensure that the correct language was documented in the
Audit and Accountability Processes and Procedures. The procedures have also never
been finalized. BIS is responsible for the agency’s information system security policies
and procedures. The Chief Security Officer informed us that BIS has been working with
a limited staff, which has caused some tasks such as reviewing, updating, and finalizing
specific policies and procedures to be delayed. An additional employee is expected to
begin work by the end of fiscal year 2014.

The inaccurate Audit and Accountability Processes and Procedures document can
result in an untimely review of the audit records and audit logs. There is an increased
risk of security exposure and gaps in controls when policies and procedures are
inconsistent or are not updated timely.




                                             8
Recommendations

    6. The Bureau of Information Services should review the RRB’s information security
       processes and procedures for audit and accountability to ensure they properly
       reflect the current practices.

    7. The Bureau of Information Services should ensure the RRB’s policies and
       procedures are finalized and periodically reviewed and updated for accuracy.

Management’s Response

The BIS concurs with recommendations 6 and 7. For recommendation 6 the Chief
Security Officer will review the current processes and procedures for audit and
accountability and ensure they properly reflect the current practices that are in place at
the RRB. For recommendation 7, the Chief Security Officer is in the process of
performing a review of all the RRB information security policies and procedures in
IRM-18 and will have the review completed in fiscal year 2015. After the review has
been completed, he will make certain that all of the policies and procedures have been
finalized as directed.


Anticipated Migration of Program Accounts Receivable Application

During the course of our audit, we were advised that the RRB is planning to migrate the
PAR component application of the Financial Management System to a system that fully
integrates with FMIS. Funding for this project has been requested in the Congressional
Justification of Budget Estimates for fiscal year 2015, and the RRB expects to begin
preparing a Statement of Work in the near future.

The OIG has recently performed audits on the adequacy of the interface application
controls and selected business process controls in FMIS, and reported similar
deficiencies as noted in this report. 5 Specifically, we reported:

    •   the FMIS SSP did not adequately describe the interfaces and omitted
        information about applications and systems that interconnect with FMIS;
    •   policies and procedures were not clearly documented or maintained for FMIS
        transaction processing;
    •   selected business process controls for the preparation and approval of
        accounting transactions were not operating and effective because only partial
        or no supporting documentation was available;



5
 Audit of the Adequacy of Interface Application Controls in the Financial Management Integrated System,
Report No. 14-11, August 14, 2014.
 Audit of the Business Process Controls in the Financial Management Integrated System, Report No. 14-10,
August 1, 2014.
                                                  9
   •   FMIS transactions had been modified by the Financial Systems Manager
       contrary to BFO policy; and
   •   FMIS security profiles were not always appropriate.

Lessons learned from the migration of FMIS can be effectively applied to reduce the risk
of similar deficiencies when the RRB migrates to PAR.

Recommendation

   8. The Bureau of Fiscal Operations should consider and apply related OIG
      recommendations and lessons learned from the FMIS migration when planning
      for, and migrating to, the fully-integrated PAR application.

Management’s Response

The BFO concurs with recommendation 8. They will provide the PAR migration team
and Contracting Officer’s Representative with copies of the OIG findings and
recommendations in this report and the OIG’s audits on the adequacy of the interface
application controls and selected business process controls in FMIS, as well as other
lessons learned documentation from the FMIS migration.




                                          10
     Appendix I




11
     Appendix I




12
     Appendix I




13
     Appendix II




14
